No. 20-827
IN THE SUPREME COURT OF THE UNITED STATES
UNITED STATES OF AMERICA, PETITIONER
v.
ZAYN AL-ABIDIN MUHAMMAD HUSAYN,
AKA ABU ZUBAYDAH, ET AL.

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES, via e-mail and first-class mail, postage prepaid, this
2ND day of July, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains
12,992 words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).I declare under penalty of perjury that the foregoing is true and correct.
Executed on _July 2, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
July 2, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to mailing
your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is acceptable to
you, please fax your brief to Charlene Goodwin, Supervisory Case Management Specialist, Office of the
Solicitor General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone
number is (202) 514-2217 or 2218.

20-0827
USA
HUSAYN, ZAYN AL-ABIDIN MUHAMMAD, AKA
ABU ZUBAYDAH, ET AL.

DAVID F. KLEIN
PILLSBURY WINTHROP SHAW PITTMAN LLP
1200 17TH STREET, NW
WASHINGTON, DC 20032
DAVID.KLEIN@PILLSBURYLAW.COM
JERRY J. MOBERG
MOBERG RATHBONE KEARNS, P.S.
124 3RD AVE, S.W.
EPHRATA, WA 98823-2619
JMOBERG@MRKLAWGROUP.COM
CHRISTOPHER TOMPKINS
BETTS, PATTERSON & MINES, P.S.
701 PIKE STREET
SUITE 1400
SEATTLE, WA 98101
CTOMPKINS@BPMLAW.COM

